         U.S. Department of State
Independent Accountant’s Report on the Application
  of Agreed-Upon Procedures: Employee Benefits,
  Withholdings, Contributions, and Supplemental
 Semiannual Headcount Reporting Submitted to the
         Office of Personnel Management

                                 AUD-FM-15-01

                                   October 2014




                                         Point of Contact:
                                       Kelly Gorrell, Partner
                                   1701 Duke Street, Suite 500
                                       Alexandria, VA 22314
                               703-931-5600, 703-931-3655 (fax)
                                     kgorrell@kearneyco.com
         Kearney & Company’s TIN is 54-1603527, DUNS is 18-657-6310, Cage Code is 1SJ14
                            Independent Accountant’s Report
    on the Application of Agreed-Upon Procedures: Employee Benefits, Withholdings,
   Contributions, and Supplemental Semiannual Headcount Reporting Submitted to the
                             Office of Personnel Management

The Honorable Patrick E. McFarland
U.S. Office of Personnel Management

Kearney & Company, P.C. (referred to as “we” in this report), performed the procedures
described in the enclosure to this report, which were agreed to by the Inspector General and the
Chief Financial Officer of the U.S. Office of Personnel Management (OPM). These procedures
were performed to assist OPM in assessing the reasonableness of retirement, health benefits, and
life insurance withholdings and contributions as well as enrollment information submitted via the
Semiannual Headcount Report by the Department of State (Department) for the payroll periods
ended August 24, 2013, February 22, 2014, and January 25, 2014. In addition, the procedures
were performed to assist OPM in identifying and correcting errors relating to processing and
distributing Combined Federal Campaign payroll deductions.

This agreed-upon procedures engagement was conducted in accordance with attestation
standards established by the American Institute of Certified Public Accountants and generally
accepted government auditing standards. The sufficiency of these procedures and related subject
matter is solely the responsibility of the Inspector General and the Chief Financial Officer of
OPM. Consequently, we make no representation regarding the sufficiency of the procedures
described in the enclosure either for the purpose for which this report has been requested or for
any other purpose.

The procedures and associated results are presented in the enclosure.

We were not engaged to and did not conduct an examination, the objective of which would be
the expression of an opinion on the withholdings and contributions for retirement, health
benefits, and life insurance; the Semiannual Headcount Reports; and the Combined Federal
Campaign payroll deductions of the Department. Accordingly, we do not express such an
opinion. Had we performed additional procedures, other matters might have come to our
attention that would have been reported to you.

This report is intended solely for the information and use of the Inspector General and the Chief
Financial Officer of OPM and is not intended to be and should not be used by anyone other than
these specified parties. However, the report is a matter of public record, and its distribution is not
limited.




Alexandria, Virginia
September 29, 2014
Enclosure
                    Procedures Agreed Upon                                       Findings/Comments
For employee benefit withholding and contributions, obtain the         Completed.
agency payroll provider’s (APP) September 2013 and March 2014          Selected pay periods 16 and 3, which
Semiannual Headcount Reports submitted to the Office of                coincided with the September 2013 and
Personnel Management (OPM) and a summary of Retirement and             March 2014 Semiannual Headcount
Insurance Transfer System (RITS) submissions for September 2013        Reports, respectively. The third pay
and the current fiscal year. For each program (Retirement, Health      period selected was pay period 1.
Benefits, and Life Insurance), select a total of three RITS
submissions for September 2013 and the current fiscal year; two
will coincide with the September 2013 and March 2014
Semiannual Headcount Reports. Obtain payroll information for the
periods covered by the RITS submissions selected.

1. Compare RITS submission data to the payroll information by
performing the following procedures (Note: For cross-servicing
agencies, if the internal controls are the same for all agencies
serviced, it is only necessary to perform this procedure for one
agency.):

1.a. Recalculate the mathematical accuracy of the payroll              Completed.
information.



1.b. Recalculate the mathematical accuracy of each RITS                Completed.
submission for the payroll information selected in step 1.a.

1.c. Compare the employee withholding information at the               Completed.
aggregate level for Retirement, Health Benefits, and Life Insurance
(as adjusted for reconciling items) shown on the payroll
information obtained in step 1.a to the related amounts shown on
the RITS submission for the corresponding period.

Report any differences for each of the Retirement, Health Benefits,    Completed.
and Life Insurance (categories) for step 1.c that are over 1 percent   The comparison of Federal Employees
of the aggregate amount reported for each of the three categories.     Retirement System (FERS) withholdings
Obtain a management official name, an explanation, a telephone         and contributions for pay periods 16, 3,
number, and an email address for the differences above the 1           and 1 resulted in a difference of over 1
percent threshold.                                                     percent. The amount of FERS
                                                                       withholdings reported in the RITS
                                                                       submission was $27,577.36 (8.83
                                                                       percent), $66,850.21 (21.20 percent), and
                                                                       $63,311.93 (8.21 percent) less than the
                                                                       amount in the payroll register for pay
                                                                       periods 16, 3 and 1, respectively.
                                                                       Management stated that the differences
                                                                       were due to the omission of the Federal
                                                                       Employees Revised Annuity Employees
                                                                       System (FERS-RAE) plan participants
                                                        1
                    Procedures Agreed Upon                                          Findings/Comments
                                                                       from the Headcount reports/RITS
                                                                       submissions. These employees were
                                                                       included in the payroll registers.

                                                                       Contact Information:
                                                                       Paul McVicker
                                                                       Director, Financial Coordination and
                                                                       Reports Division
                                                                       [Redacted] (b) (6)@state.gov

                                                                       (843) 202   [Redacted] (b) (6)




                                                                       Jeff Mounts
                                                                       Managing Director
                                                                       Global Compensation
                                                                       [Redacted] (b) (6)
                                                                                          @state.gov
                                                                       (843) 308   [Redacted] (b) (6)




2. Perform detail testing of a random sample of transactions as
follows:

2.a. Randomly select a total of 25 individuals who were in the         Completed.
payroll system for all three of the RITS submissions selected above    Randomly selected a total of 25
that meet all of the following criteria. In addition, 1) randomly      individuals who met all criteria.
select five individuals who are under FERS-RAE to test that their      Randomly selected five individuals
FERS-RAE contribution rate was calculated correctly and 2)             covered by FERS-RAE. The Department
randomly select five individuals who are under Further Revised         did not implement the FERS-FRAE rates
Annuity Employees system (FERS-FRAE) to test that their FERS-          as of testing; therefore, FERS-FRAE
FRAE contribution rate was calculated correctly:                       withholding was not tested.
                                                                       Management stated that FERS-FRAE
      Covered by the Civil Service Retirement System (CSRS) or        rates were not implemented because they
       the Federal Employees Retirement System (FERS).                 were not yet published by OPM. The
      Enrolled in the Federal Employees Health Benefits               following agencies are affected: the
       Program.                                                        United States (U.S.) Department of State,
      Covered by Basic Life Insurance.                                Office of the U.S. Trade Representative,
      Covered by at least one FEGLI optional coverage (Option         American Institute in Taiwan, and the
       A, B, or C).                                                    Nuclear Regulatory Commission.

2.b. Obtain the following documents, either in electronic or hard-
copy format, from the Official Personnel File (OPF) for each
individual selected in step 2.a. Hard copies can be originals or
certified copies.

      All Notifications of Personnel Actions (SF-50) covering the     Completed.
       pay periods in the RITS submissions chosen.

      The Health Benefits Election Form (SF-2809) covering the        Completed.
       pay periods in the RITS submissions chosen or, if
       applicable, obtain a report (via the agency personnel office)
                                                        2
                     Procedures Agreed Upon                                       Findings/Comments
       from the agency’s automated system that allows
       participants to change benefits (for example, Employee
       Express) for any Health Benefits transactions in that system
       for the individuals selected in step 2.a. (Note: A new SF-
       2809 is needed only if an employee is changing health
       benefit plans; therefore, the form could be many years old.)

      For Health Benefits, compare the date of transaction with     Completed.
       the date on the certified copy of the SF-2809 or the          No differences were found as a result of
       agency’s automated system report obtained above to            applying this procedure.
       identify whether the health benefit information to be used in
       step 2.f covers the pay periods in the RITS submissions
       chosen.

      The Life Insurance Election Form (SF-2817) covering the          Completed.
       pay periods in the RITS submission chosen. (Note: A new
       SF-2817 is needed only if an employee is changing life
       insurance coverage; therefore, the form could be many
       years old.)

2.c. For each individual selected in step 2.a, compare the base         Completed.
salary used for payroll purposes and upon which withholdings and        No differences were found as a result of
contributions generally are based to the base salary reflected on the   applying this procedure.
employee’s SF-50. Report any differences resulting from this step,
and obtain management’s explanation for the differences.

2.d. For Retirement for each individual selected in step 2.a,     Completed.
compare the retirement plan code from the employee’s SF-50 to the No differences were found as a result of
plan code used in the payroll system. Report any differences      applying this procedure.
resulting from this step, and obtain management’s explanation for
the differences.

2.e. For each individual selected in step 2.a, calculate the        Completed.
retirement amount to be withheld and contributed for the plan code No differences were found as a result of
from the employee’s SF-50 by multiplying the base salary from the applying this procedure.
employee’s SF-50 by the official withholding and contribution
rates required by law. Compare the calculated amounts to the actual
amounts withheld and contributed for the retirement plan. Report
any differences resulting from this step, and obtain management’s
explanation for the differences.

2.f. For Health Benefits for each individual selected in step 2.a,      Completed.
compare the employee withholdings and agency contributions to           No differences were found as a result of
the official subscription rates issued by OPM for the plan and          applying this procedure.
option elected by the employee, as documented by an SF-2809 in
the employee’s OPF or automated system that allows the
participant to change benefits (for example, Employee Express).
Report any differences resulting from this step, and obtain
                                                         3
                     Procedures Agreed Upon                                         Findings/Comments
management’s explanation for the differences. The Health Benefits
rates can be found on OPM’s Web site at:
http://www.opm.gov/insure/health/ rates/index.asp.

2.g. For Life Insurance for each individual selected in step 2.a, Completed.
confirm that Basic Life Insurance was elected by the employee by  No differences were found as a result of
inspecting the SF-2817 documented in the employee’s OPF. Report applying this procedure.
any differences resulting from this step, and obtain management’s
explanation for the differences.

2.h. For each individual selected in step 2.a, calculate the
withholding and contribution amounts for Basic Life Insurance
using the following:

   For employee withholdings: Round the employee’s annual base Completed.
    salary up to the nearest $1,000 and add $2,000. Divide this total
    by 1,000 and multiply by the rate required by law. The Life
    Insurance rates are in the FEGLI Program Booklet on OPM’s
    Web site at: http://www.opm.gov/ insure/life/rates/index.asp.

   For agency contributions: Divide the employee withholdings            Completed.
    calculated above by 2.

Compare the calculated employee withholdings and agency                   Completed.
contributions with the actual amounts withheld and contributed for        No differences were found as a result of
Basic Life Insurance. Report any differences resulting from this          applying this procedure.
step, and obtain management’s explanation for the differences.

2.i. Also, for Life Insurance for each individual selected in step 2.a,   Completed.
compare optional coverage elected as documented on the SF-2817            No differences were found as a result of
in the employee’s OPF with the optional coverage documented in            applying this procedure.
the payroll system. Report any differences resulting from this step,
and obtain management’s explanation for the differences.

2.j. For each individual selected in step 2.a, calculate the
withholding amounts for optional life insurance using the
following:

   For Option A: Locate the employee’s age group using the age           Completed.
    groups provided for Option A in the FEGLI Program Booklet.            No differences were found as a result of
    The withholding amount to be used is the rate listed in the           applying this procedure.
    FEGLI Program Booklet for that age group. Compare the
    calculated amount with the amount withheld for Option A Life
    Insurance. Report any differences resulting from this step, and
    obtain management’s explanation for the differences.

   For Option B: Inspect the SF-2817 to obtain the number of             Completed.
    multiples chosen for Option B. Locate the employee’s age              No differences were found as a result of
                                                          4
                    Procedures Agreed Upon                                    Findings/Comments
    group using the age groups provided for Option B in the FEGLI applying this procedure.
    Program Booklet. Round the employee’s annual rate of basic
    pay up to the next 1,000, divide it by 1,000, and then multiply it
    by the rate for the respective age group. Multiply this amount
    by the number of multiples chosen for Option B Life Insurance.
    Compare the calculated amount with the amount withheld for
    Option B Life Insurance. Report any differences resulting from
    this step, and obtain management’s explanation for the
    differences.

   For Option C: Inspect the SF-2817 to obtain the number of      Completed.
    multiples chosen for Option C. Locate the employee’s age       No differences were found as a result of
    group using the age groups provided for Option C in the FEGLI applying this procedure.
    Program Booklet. Multiply the rate for the age group by the
    number of multiples chosen for Option C Life Insurance.
    Compare the calculated amount with the amount withheld for
    Option C Life Insurance. Report any differences resulting from
    this step, and obtain management’s explanation for the
    differences.

3. Randomly select a total of 10 employees who have no Health         Completed.
Benefits withholdings from the payroll information corresponding
to the three RITS submissions selected above, and perform the
following steps for each employee selected:

3.a. Obtain SF-2809s covering the pay periods in the RITS             Completed.
submissions chosen, either in electronic or hard-copy format, from
the selected employee’s OPF or, if applicable, obtain a report (via
the agency personnel office) from the agency’s automated system
that allows participants to change benefits (for example, Employee
Express) for any Health Benefit transactions in that system for the
individuals selected. Hard copies can be originals or certified
copies. Inspect the documentation (that is, SF-2809 or the agency’s
system-generated report) to identify whether health benefits
coverage was not elected. This can be identified in the following
ways:

   Absence of an SF-2809 in the OPF and no election of coverage
    made through the agency’s automated system that allows
    participants to change benefits (for example, Employee
    Express), or

   An SF-2809 in the OPF with Section E checked (indicating
    cancellation of coverage) and no later election of coverage
    through the agency’s automated system that allows participants
    to change benefits (for example, Employee Express), or

   Cancellation of coverage through the agency’s automated
                                                       5
                    Procedures Agreed Upon                                       Findings/Comments
    system that allows participants to change benefits (for example,
    Employee Express) and no later election of coverage with an
    SF-2809.

3.b. Compare the results in step 3.a with the RITS submissions.        Completed.
Report any differences resulting from this step, and obtain            No differences were found as a result of
management’s explanation for the differences.                          applying this procedure.
4. Randomly select a total of 10 employees who have no Life            Completed.
Insurance withholdings from the payroll information corresponding
to the three RITS submissions selected above, and perform the
following steps for each employee selected:

4.a. Obtain the SF-2817s covering the pay periods in the RITS          Completed.
submissions chosen, either in electronic or hard-copy format, from     No differences were found as a result of
the selected employee’s OPF. Hard copies can be originals or           applying this procedure.
certified copies. Inspect the SF-2817 to identify that the employee
waived or canceled Basic Life Insurance coverage.

4.b. Compare the result in step 4.a with the RITS submissions.         Completed.
Report any differences resulting from this step, and obtain            No differences were found as a result of
management’s explanation for the differences.                          applying this procedure.




5. Calculate the headcount reflected on the September 2013 and
March 2014 Semiannual Headcount Reports selected as follows:

5.a. Obtain existing payroll information (from step 1.a) supporting    Completed.
each Supplemental Semiannual Headcount report. If existing
payroll data are not available, obtain a payroll system query that
summarizes detailed payroll data supporting each Supplemental
Semiannual Headcount Report as follows:

   Benefit Category (see Semiannual Headcount Report)
   Dollar Amount of withholdings and contributions
   Number Enrolled (deductions made/no deductions)
   Central Personnel Data File Code
   Aggregate Base Salary

5.b. Recalculate the Headcount reflected on each Semiannual           Completed.
Headcount Report. If an electronic file is not available, a suggested
method of recalculating the Headcount is as follows: (1) estimate
the number of employees per payroll register page by counting the
employees listed on several pages, (2) count the number of pages in
the payroll register, and (3) multiply the number of employees per
page by the number of pages or count (using a computer audit
routine) the number of employees on the payroll data file for the
                                                          6
                      Procedures Agreed Upon                                       Findings/Comments
period.

5.c. Compare the payroll information obtained in step 5.a and the        Completed.
calculated headcount from step 5.b with the information shown on
each respective Semiannual Headcount Report.

5.d. Report any differences (for example, gross rather than net)         Completed.
greater than 2 percent between the Headcount reporting on each           No differences were found as a result of
respective agency Semiannual Headcount Report and payroll                applying this procedure.
information from step 5.a and the calculated Headcount from step
5.b. Obtain a management official’s name, telephone number,
email address, and an explanation for the differences.

6. Calculate employer and employee contributions for Retirement,
Health Benefits, and Life Insurance as follows:

6.a. Calculate Retirement withholdings and contributions for the
three pay periods selected in step 1.a as follows:

  i.      Multiply the CSRS and FERS payroll base by the                 Completed.
          withholding and employer contribution rates required by
          law.

 ii.      Compare the calculated totals from step 6.a.i to the related   Completed.
          amounts shown on the RITS submissions. Report any              No differences were found as a result of
          differences (for example, gross rather than net) between the   applying this procedure.
          calculated amounts and the amounts reported on the RITS
          submissions greater than 5 percent of the amounts on the
          RITS submission, and obtain management’s explanation for
          the differences.

6.b. Calculate employee withholdings and employer contributions
for Health Benefits for the three pay periods selected in step 1.a as
follows:

  i.      Multiply the number of employees enrolled in each Health   Completed.
          Benefits plan and plan option by the employee withholdings
          and employer contributions for the plan and option.

 ii.      Sum the totals in step 6.b.i, and compare the results with the Completed.
          Health Benefit withholding and contribution amounts            No differences were found as a result of
          shown on the RITS submissions. Report any differences          applying this procedure.
          (for example, gross rather than net) between the calculated
          amounts and the amounts reported on the RITS submissions
          greater than 5 percent of the amounts on the RITS
          submission, and obtain management’s explanation for the
          differences.

                                                          7
                     Procedures Agreed Upon                                          Findings/Comments
6.c. Calculate the Basic Life Insurance employee withholdings and
employer contributions for the three pay periods selected in step 1.a
as follows:

   i.   Obtain a payroll system query from APP personnel to                Completed.
        obtain the total number of employees with Basic Life
        Insurance coverage and the aggregate annual basic pay for
        all employees with Basic Life Insurance.

 ii.    For employee withholdings: Add the product of 2,500                Completed.
        times the number of employees with Basic Life Insurance
        coverage from step 6.c.i to the aggregate annual basic pay
        for all employees with Basic Life Insurance from step 6.c.i
        to calculate the estimated total Basic Life Insurance
        coverage. Divide this calculated total by 1,000, and
        multiply it by the withholding rate required by law. The
        Life Insurance withholding rates are in the FEGLI Program
        Booklet on OPM’s Web site.

 iii.   Compare the results in step 6.c.ii to the withholdings for         Completed.
        Basic Life Insurance coverage reported on the RITS                 No differences were found as a result of
        submission. Report any difference (for example, gross              applying this procedure.
        rather than net) between the estimate and the amount of
        withholdings reported on the RITS submission greater than
        5 percent of the amounts on the RITS submission, and
        obtain management’s explanation for the difference.

 iv.    For agency contributions: Divide the results of step 6.c.ii  Completed.
        by 2—this approximates agency contributions, which are       No differences were found as a result of
        one-half of employee withholdings. Compare this result to    applying this procedure.
        the amount reported on the RITS submission. Report any
        differences (for example, gross rather than net) between the
        estimated amount and the actual amount reported on the
        RITS submission greater than 5 percent of the amounts on
        the RITS submission, and obtain management’s explanation
        for the differences.

6.d. Calculate the Option A, Option B, and Option C Life
Insurance coverage withholdings for the three pay periods selected
by using detailed payroll reports used to reconcile the RITS reports
in Step 1 on page 1. In addition to the information used for Step 1,
the reports should include the employee's date of birth, annual rate
of basic pay, and number of multiples selected for Options B and
C. (Note: While similar to step 2.j, the calculation at this step is for
the entire amount reported on the RITS submissions for the three
pay periods selected, as opposed to the sample of 25 employees in
step 2.j.)

                                                           8
                       Procedures Agreed Upon                                       Findings/Comments
  i.      Multiply the number of employees in each age group by the       Completed.
          appropriate rate for Option A in accordance with the rates
          for age groups provided in the FEGLI Program Booklet.

 ii.      Compare the result in step 6.d.i with the amounts for Option Completed.
          A reported on the RITS submissions. Report any                No differences were found as a result of
          differences (for example, gross rather than net) greater than applying this procedure.
          2 percent of the amounts on the RITS submission, and
          obtain management’s explanation for the differences.

iii.      Segregate the reports for Option B and Option C insurance       Completed.
          into the age groups shown in the FEGLI Program Booklet.
          For Option B, round the employee’s annual rate of basic
          pay up to the next 1,000, then divide it by 1,000, and then
          multiply this amount by the rate for the age group by then
          multiplying this by the number of multiples:

          (Annual rate of basic pay [rounded up]
          /1000*rate*multiples).

          For Option C, multiply the rate for the age group by the
          number of multiples chosen for each employee.

 iv.      Compare the results in step 6.d.iii with the amounts for        Completed.
          Option B and Option C, respectively, reported on the RITS       No differences were found as a result of
          submissions. Report any differences (for example, gross         applying this procedure.
          rather than net) greater than 2 percent of the amounts on the
          RITS submission for Option B or Option C, and obtain
          management’s explanation for the differences.

For the Combined Federal Campaign (CFC) payroll deductions,
obtain the following documentation for the Federal agencies
serviced by the APP:

       a) A list of all field offices/duty stations in existence during Completed.
          the fall of 2013 CFC solicitation period (September 1, 2013,
          through January 15, 2014) for each Federal agency
          serviced. The list must include either the OPM Official
          Duty Station Code or the county, city, state, and zip code
          for the field office.

       b) A list of all local CFC campaigns and the areas they cover.     Completed.
          This list should be obtained directly from the OPM Office
          of CFC Operations (OCFCO).

       c) A list of accounting codes used by the APP to identify each Completed.
          local CFC campaign. The list should include the accounting
          code, name of campaign, name of Principal Combined Fund
                                                           9
                      Procedures Agreed Upon                                          Findings/Comments
        Organization (PCFO) for that campaign, and address of
        PCFO.

    d) A report of all employees with CFC deductions from the               Completed.
       RITS submission selected to coincide with the March 2014
       Semiannual Headcount. The report must include each
       employee’s official duty station location and the APP’s
       accounting code identifying the campaign to which each
       employee’s funds are being distributed.
7. Compare the list of field offices/duty stations with the list of
local CFC campaigns obtained from OPM’s OCFCO.

7.a. Determine in which campaign each field office/duty station is          Completed.
located. (Note: It is possible for a field office/duty station to be in a
location with no local CFC campaign.)
8. Compare the list of accounting codes with the identified
campaigns for each field office/duty station.

8.a. Determine the accounting code for each field office/duty               Completed.
station.                                                                    The Department uses the CFC Location
                                                                            Code as the accounting code.

8.b. Determine whether the name of the campaign, PCFO, and                  Completed.
address of the PCFO in the APP system agree with the information
for that field office/duty station on the list of local CFC campaigns
obtained from OPM’s OCFCO.

9. Sort the report of all employees with CFC deductions by Official
Duty Station.

9.a. Compare the Official Duty Stations with the campaigns                  Completed.
identified for those locations.                                             No differences were found as a result of
                                                                            applying this procedure.

9.b. Compare the Accounting Codes for each employee with CFC                Completed.
deductions with the accounting code for that employee’s Official            The Department uses the CFC location
Duty Station.                                                               code to ensure that CFC deductions are
                                                                            being made to the correct campaign based
       Determine whether this agrees with the accounting code              on the employee’s Official Duty Station.
        identified for that field/duty station.                             Accordingly, we compared each
                                                                            employee’s CFC location code with the
                                                                            city and state of the employee’s Official
                                                                            Duty Station. Of the 2,156 individual
                                                                            contributions tested, we identified 11
                                                                            instances in which the employee’s
                                                                            Official Duty Station did not agree with
                                                                            the CFC location code.
                                                           10
                    Procedures Agreed Upon                                       Findings/Comments
10. From the list of accounting codes that do not agree with the
field office/duty station, select a judgmental sample of two pledges
per Federal agency and request the hard-copy pledge form from the
agency.

    Determine whether the pledge form used was for the correct Completed.
     campaign based on the official duty station.               From the 11 instances identified in step
                                                                9.b, we selected two pledges from the
                                                                Department of State. For the two pledges
                                                                selected, the employees had completed a
                                                                pledge form from a campaign area other
                                                                than their official duty station.
CFC AUP Evaluation: Report as a finding the following:

   a) All instances in which the name of the campaign, PCFO, or        No instances were identified in which the
      address of the PCFO on the list of accounting codes from         campaign, PCFO, or address of the PCFO
      the Federal Payroll Office does not agree with the               on the list of accounting codes from the
      information on the list of all local CFC campaigns obtained      Federal Payroll Office did not agree with
      from OPM’s CFC. A chart detailing the differences should         the information on the list of all local
      be included. Obtain management’s explanation for the             CFC campaigns obtained from OPM’s
      differences and a corrective action plan.                        CFC.

   b) All instances in which a Federal agency has a CFC                No instances were identified in which the
      deduction for an employee whose official duty station is in      Department had a CFC deduction for an
      an area with no local CFC campaign. A chart listing the          employee whose official duty station was
      Federal agency, the duty station code, and the campaign          in an area with no local CFC campaign.
      receiving the funds should be included. Obtain
      management's explanation for the differences and a
      corrective action plan.

   c) All instances in which the accounting code for an employee       We identified 11 instances in which the
      with CFC deductions does not agree with the accounting           employee’s Official Duty Station did not
      code for that employee’s Official Duty Station. A chart          agree with the CFC location code. A chart
      listing the Federal agency, the duty station code, the           listing the Federal agency, the duty
      campaign used, and the correct campaign should be                station location (city), the duty station
      included. Obtain management's explanation for the                location (country/state), the campaign
      differences and a corrective action plan.                        used, and the correct campaign is attached
                                                                       to this report. Management concurred that
                                                                       in 2013 individuals made CFC pledges
                                                                       outside of their geographic duty stations.
                                                                       However, the Department determined that
                                                                       the pledges for 5 of the 11 individuals
                                                                       were submitted prior to these individuals
                                                                       being officially reassigned to new
                                                                       locations. Management further stated that,
                                                                       although the remaining six samples
                                                                       showed that CFC contributions made by
                                                                       these employees did not meet the CFC
                                                       11
                Procedures Agreed Upon                                   Findings/Comments
                                                               geographic duty station requirement, the
                                                               Department processed the donations in an
                                                               effort to support the annual CFC and
                                                               promote charitable giving. Management
                                                               indicated that it will ensure that any local
                                                               hard copy CFC form is reviewed and the
                                                               system is updated with the correct address
                                                               to reflect the proper campaign fund.
                                                               Additionally, management noted that
                                                               OPM has announced the launch of the
                                                               2014 CFC season and its new “Universal
                                                               Giving Campaign.” Under this new
                                                               format, employees will be allowed to
                                                               contribute to any organization, regardless
                                                               of geographic location, that appears on
                                                               the CFC charity list.


d) All instances in which the incorrect pledge form was used   We identified two instances in which an
   by the employee. A chart listing the Federal agency, the    incorrect pledge form was completed by
   correct campaign, and the campaign used should be           the employee. A chart listing the Federal
   included.                                                   agency, the correct campaign, and the
                                                               campaign used is attached to this report.
                                                               Management stated that the pledge forms
                                                               for these two individuals were submitted
                                                               prior to the individuals being officially
                                                               reassigned to new locations.




                                                 12
                          Combined Federal Campaign Agreed-Upon Procedures Evaluation - Step C
                                                       Duty Station
                                  Duty Station           Location
Number      Federal Agency       Location (City)      (Country/State)                    Campaign Used                   Correct Campaign

  1      19 - State Department   Washington        D.C.                      King County CFC                    CFC of the National Capital Area

  2      19 - State Department   Seattle           Washington                CFC of the National Capital Area   King County CFC

  3      19 - State Department   San Juan          Puerto Rico               Greater New Orleans Area CFC       Puerto Rico CFC

  4      19 - State Department   Portsmouth        New Hampshire             CFC of the National Capital Area   Northern New England CFC
                                                                                                                CFC of Eastern Pennsylvania and South
  5      19 - State Department   Philadelphia      Pennsylvania              SoCal CFC                          Jersey
                                                                             CFC of Connecticut and Western
  6      19 - State Department   New York          New York                  Massachusetts                      CFC of New York City

  7      19 - State Department   Los Angeles       California                SoCal CFC                          CFC of Greater SoCal

  8      19 - State Department   Hot Springs       Arkansas                  Atlantic Coast CFC                 CFC of Greater Arkansas

  9      19 - State Department   Charleston        South Carolina            CFC of the National Capital Area   Coastal Carolina CFC

  10     19 - State Department   Charleston        South Carolina            King County CFC                    Coastal Carolina CFC

  11     19 - State Department   Atlanta           Georgia                   Atlantic Coast CFC                 Greater Atlanta-Athens CFC




                                                                        13
                Combined Federal Campaign Agreed-Upon Procedures Evaluation - Step D

Number               Federal Agency                 Correct Campaign                    Campaign Used

  1      19 - State Department         CFC of the National Capital Area   King County CFC

  2      19 - State Department         Puerto Rico CFC                    Greater New Orleans Area CFC




                                                     14
